TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Better Screening and Monitoring of
                 E-File Providers Is Needed to Minimize the
                Risk of Unscrupulous Providers Participating
                            in the E-File Program



                                      September 19, 2007

                              Reference Number: 2007-40-176




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 19, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Better Screening and Monitoring of E-File
                             Providers Is Needed to Minimize the Risk of Unscrupulous Providers
                             Participating in the E-File Program (Audit # 200740020)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) screening and monitoring of electronic filing (e-file) Providers is effective. This
 audit is a followup to prior Treasury Inspector General for Tax Administration (TIGTA)
 reviews.1

 Impact on the Taxpayer
 The primary means by which the IRS regulates e-file Providers are the application screening
 process and the monitoring program. The application screening process does not ensure the
 integrity of the individuals applying for participation in the e-file Program and the monitoring
 program does not ensure e-file Providers are compliant with e-file Program requirements.
 Inadequate screening and monitoring increases the risk to both the taxpaying public and the
 Federal Government for potential losses associated with unscrupulous e-file Providers.




 1
  Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference
 Number 2003-30-039, dated January 2003), Improvements Are Needed in the Screening and Monitoring of E-File
 Providers to Protect Against Filing Fraud (Reference Number 2004-40-013, dated November 2003), and E-File
 Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002).
                   Better Screening and Monitoring of E-File Providers Is Needed to
                      Minimize the Risk of Unscrupulous Providers Participating
                                         in the E-File Program



Synopsis
There were 259,009 authorized electronic return originators2 as of May 22, 2007, who
electronically filed (e-filed) about 55 million (71 percent) of the approximately 77.1 million
e-filed tax returns accepted in Calendar Year 2007. The application screening process is used to
ensure individuals applying for entry into the e-file Program have met required screening and
verification checks before they are authorized to participate in the e-file Program. Monitoring
visits are the primary means to verify compliance with many of the e-file Program requirements.
The IRS has an effective process for ensuring applicants meet age requirements and e-file
Providers meet certain suitability checks, such as tax compliance. A review of 98 applications
found that tax compliance checks were correctly performed for the 137 Principal and
Responsible officials3 and the 94 businesses listed on these applications. However, the IRS does
not have an independent verification process to confirm the accuracy of applicants who claim
they are a Not-for-Profit service. In addition, the IRS does not verify citizenship. Tests of
                                        98 applications showed 3 of the 137 applicants were either
     Applicant requirements and
                                        aliens not allowed to work or alien students with restricted
      suitability checks are not        work authorizations. In a previous audit,4 we conducted a
       verified or consistently         similar test to identify individuals whose citizenship
              performed.                indicator identified them as not being a citizen or legal
                                        resident alien. A total of 85 individuals were referred to
                                        the IRS for research. Of the 85 individuals,
52 (61 percent) were eventually removed from the e-file Program. For 40 (77 percent) of the
52 individuals removed, the applicants falsified their applications by identifying themselves as
United States citizens or legal resident aliens.
Furthermore, credit checks are not performed and criminal background checks are limited. The
IRS does verify the status of individuals who submit a professional certification in lieu of a
fingerprint card to ensure they are still in good standing with the organization that issued the
certification. It also verifies all new applicants are at least 21 years of age and not deceased.



2
  Electronic Return Originators (ERO) originate the electronic submission of income tax returns to the IRS. An
ERO electronically submits income tax returns that are either prepared by the ERO firm or collected from a
taxpayer.
 3
   A Principal includes the sole proprietor, partners, or individuals authorized to act for the entity in legal and/or tax
 matters. A Responsible Official is the first point of contact with the IRS and has the authority to sign revised IRS
 e-file applications and ensures the e-file Provider adheres to the provisions of the revenue procedure as well as all
 publications and notices governing the IRS. There were a total of 138 Principal and Responsible Officials on the
 98 applications. One individual did not list a Social Security Number on the application, so their tax compliance or
 citizenship status could not be verified.
4
  E-File Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002).
                                                                                                                         2
                Better Screening and Monitoring of E-File Providers Is Needed to
                   Minimize the Risk of Unscrupulous Providers Participating
                                      in the E-File Program



Testing also identified that deficiencies prevent the IRS from measuring program performance
and ensuring that authorized e-file Providers are in conformance with e-file Program guidelines.
For example:
   •   Current procedures do not ensure e-file Providers most at risk of noncompliance are
       selected for monitoring visits, including the scheduling of required followup visits.
   •   E-file Providers who were issued written reprimands were not subject to the required
       followup visits.
   •   Procedures have not been developed requiring e-file Monitoring Coordinators to record
       the receipt and disposition of referrals.
   •   E-file Providers determined to be in violation of e-file Program requirements were not
       suspended.
   •   Documentation supporting e-file Provider appeal requests and decisions associated with
       these requests is inadequate.
   •   E-file Monitoring Program management information is inaccurate.
Finally, the IRS does not have a process to review e-file Provider cases, worked by its Criminal
Investigation function, to identify opportunities to improve on the screening checks and selection
criteria for monitoring visits. Characteristics of these cases could identify risk factors or
indicators to be used to screen unscrupulous individuals from entry into the e-file Program and
identify unscrupulous e-file Providers in the e-file Program. The Criminal Investigation function
initiated 315 criminal cases involving tax return preparers during Fiscal Years 2006 and 2007
(as of April 30, 2007).

Recommendations
The Commissioner, Wage and Investment Division, should ensure applicants who claim to be a
Not-For-Profit are in fact a Not-For-Profit and revise screening procedures to require validation
of an applicant’s citizenship. The Commissioner, Small Business/Self Employed Division,
should develop processes to ensure risk-based selection criteria is used to select e-file Providers
for monitoring visits, the receipt and disposition of referrals are recorded, e-file Providers are
suspended when recommended, adequate documentation supporting appeals is maintained, and
management information accurately reflects e-file Monitoring Program results. In addition,
procedures should be clarified as to when followup visits should be performed. Both
Commissioners should ensure results of criminal cases involving e-file Providers are used to
identify potential risk factors or indicators that can be built into the screening and monitoring
process to improve on the identification of unscrupulous e-file Providers.


                                                                                                      3
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



Response
IRS management agreed with eight of our nine recommendations and partially agreed with
one recommendation. The Electronic Tax Administration Office is currently partnering with
Stakeholder Partnerships, Education, and Communication Headquarters office to establish
formal procedures for validating existing authorized IRS e-file Providers as an organization
providing a Not-for-Profit service. The Electronic Tax Administration Office has taken steps to
review the citizenship verification process and develop a solution. The citizenship codes of
applicants can be checked using the Data Master One5 tape from the Social Security
Administration before they are accepted into the IRS e-file Program. Applicants found to have a
citizenship code that shows they are an alien in the United States and are not a legal resident
alien will be manually contacted for verification before the application can be completed. For
existing applicants, a one-time query will be made using these same procedures. Individuals
who are not able to verify that they are United States citizens or legal resident aliens will be
suspended from the IRS e-file Program.
IRS management has developed a risk-based selection criterion and procedures regarding
followup visits. Both of these items should be published by January 30, 2008. IRS management
has developed a process to keep track of referrals and Electronic Filing Identification Number
suspension cases through a new control log.
IRS management has clarified procedures requiring the maintenance of adequate documentation
supporting an e-file Provider’s request for an appeal, as well as documentation supporting the
review and outcome of an appeal. They have also developed a process to keep track of results
that are kept by the Area E-File Monitoring Coordinators.
IRS management will study the feasibility of using results of criminal cases involving e-file
Providers to identify risk factors or indicators for the suitability process. This will require
working with the Criminal Investigation Division to obtain criminal case characteristics of
providers of e-file returns and any other information they might have. We believe management’s
action satisfies the intent of our recommendation. Management’s complete response to the draft
report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




5
  The Data Master One (DM–1) File Data Store contains data from the Social Security Administration used to verify
taxpayers who do not have a primary Master File account.
                                                                                                                4
                     Better Screening and Monitoring of E-File Providers Is Needed to
                        Minimize the Risk of Unscrupulous Providers Participating
                                           in the E-File Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ................................................................................................Page 5
          The Application Screening Process Does Not Ensure the Integrity
          of the Individuals Applying for Participation in the E-File Program ...........Page 5
                    Recommendations 1 and 2: ..............................................Page 9

          The Monitoring Program Does Not Ensure E-File Providers Are
          Compliant With Program Requirements.......................................................Page 10
                    Recommendations 3 through 5:.........................................Page 16

                    Recommendations 6 through 8:.........................................Page 17

          Reviews of Closed Criminal Cases Involving E-File Providers May
          Identify Risk Factors or Indicators to Detect Unscrupulous E-File
          Providers .......................................................................................................Page 18
                    Recommendation 9:........................................................Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Prior Treasury Inspector General for Tax
          Administration Report Recommendations....................................................Page 24
          Appendix V – Examples of E-File Provider Requirements Verifiable
          Only Through a Monitoring Visit .................................................................Page 28
          Appendix VI – Management’s Response to the Draft Report ......................Page 29
              Better Screening and Monitoring of E-File Providers Is Needed to
                 Minimize the Risk of Unscrupulous Providers Participating
                                    in the E-File Program




                               Abbreviations

e-file, e-filed         Electronic Filing, Electronically Filed
ERO                     Electronic Return Originator
IRS                     Internal Revenue Service
TIGTA                   Treasury Inspector General for Tax Administration
U.S.                    United States
                Better Screening and Monitoring of E-File Providers Is Needed to
                   Minimize the Risk of Unscrupulous Providers Participating
                                      in the E-File Program




                                          Background

The Internal Revenue Service’s (IRS) electronic filing (e-file) Program offers
taxpayers an alternative to filing a traditional paper tax return. The
e-file Program enables tax returns to be sent to the IRS in an electronic
format via an authorized IRS e-file Provider. An e-file Provider is generally the first point of
contact for most taxpayers filing a tax return through the IRS’ e-file Program. Figure 1 lists
types of authorized e-file Providers.
                    Figure 1: Types of Authorized IRS E-File Providers
     Electronic Return           EROs originate the electronic submission of income tax returns to
     Originator (ERO)            the IRS. An ERO electronically submits income tax returns that are
                                 either prepared by the ERO firm or collected from a taxpayer.

     Intermediate Service        Intermediate Service Providers receive tax return information from
     Providers                   EROs or from taxpayers who file electronically using a personal
                                 computer, modem, and commercial tax preparation software on an
                                 Internet site; process the tax return information; and either forward
                                 the information to a transmitter or send the information back to the
                                 EROs or taxpayers.

     Transmitters                Once the return is prepared, the income tax return data is sent to
                                 the IRS by a transmitter. Transmitters must have software and
                                 modems that allow them to connect with IRS computers. EROs
                                 and Intermediate Service Providers may also apply to be
                                 transmitters and transmit return data themselves or they may
                                 contract with accepted third-party transmitters who will transmit the
                                 data for them.

     Software Developers         Software Developers write the e-file programs according to IRS file
                                 specifications and record layouts making IRS e-file and
                                 Federal/State e-file possible. The IRS and participating States
                                 require that all software pass a series of tests each year. Once
                                 approved, this software may be sold and used by EROs.
   Source: IRS training guidance provided to individuals interested in becoming e-file Providers.

There were 259,009 authorized EROs as of May 22, 2007, who electronically filed (e-filed)
about 55 million (71 percent) of the approximately 77.1 million e-filed tax returns accepted in
Calendar Year 2007. The primary means by which the IRS regulates e-file Providers are the
application screening process and the monitoring program.
The application screening process is used to ensure individuals applying for entry into the
e-file Program have met required screening and verification checks before they are authorized to

                                                                                                     Page 1
                Better Screening and Monitoring of E-File Providers Is Needed to
                   Minimize the Risk of Unscrupulous Providers Participating
                                      in the E-File Program



participate in the Program. To become an e-file Provider, an applicant is required to complete
an Application to Participate in the IRS e-file Program (Form 8633) and submit it and a
fingerprint card to the IRS. The IRS allows an individual with a professional certification to
send a copy of the certification in lieu of a fingerprint card. Certifications include Attorney,
Certified Public Accountant, Enrolled Agent, and Banking Official. Each application is
required to identify Principal(s) and at least one Responsible Official.
•   A Principal includes the sole proprietor, partners, or individuals authorized to act for the
    entity in legal and/or tax matters. At least one such individual must be listed on the
    application.
•   A Responsible Official is the first point of contact with the IRS and has the authority to sign
    revised IRS e-file applications. A Responsible Official ensures the e-file Provider adheres
    to the provisions of the revenue procedure as well as all publications and notices governing
    IRS e-file.
The requirements and suitability checks outlined in the IRS e-file Application and Participation
(Publication 3112) include:
•   Applicant must be a United States (U.S.) citizen or legal resident alien.
•   Applicant must be 21 years of age as of the date of the application.
Suitability checks may include:
•   Criminal background check.
•   Credit history check.
•   Tax compliance check to ensure all required tax returns are filed and paid and to identify
    fraud and preparer penalties.
All authorized e-file Providers, except those that function solely as Software Developers, must
meet requirements and pass suitability checks prior to
acceptance in the e-file Program. If an individual does        E-file Program requirements are
not meet the requirements and/or fails a suitability           meant to protect the Program’s
check, the application will be denied. Applicants denied              image and integrity.
participation in IRS e-file will be notified in writing and
may appeal the decisions.
Once approved, e-file Providers must maintain strict adherence to Program requirements to
ensure continued participation. Program requirements are outlined in Revenue Procedure
2005–60, Handbook for Authorized IRS e-file Providers of Individual Income Tax Returns
(Publication 1345), and the Filing Season Supplement for Authorized IRS e-file Providers
(Publication 1345A). Requirements include the need to ensure tax returns are accurately filed,
are supported by the appropriate documentation, are signed by the taxpayers, and security

                                                                                             Page 2
                  Better Screening and Monitoring of E-File Providers Is Needed to
                     Minimize the Risk of Unscrupulous Providers Participating
                                        in the E-File Program



systems are in place to prevent unauthorized access to taxpayer accounts and personal
information by third parties.
The e-file Monitoring Program requires IRS employees visiting e-file Provider sites to, for
example, review the quality of IRS e-file submissions for rejects,1 check adherence to signature
                                      requirements on tax returns, scrutinize advertising
  The e-file Monitoring Program is    material, and examine records and office procedures. A
      designed to ensure e-file       monitoring visit is the primary means to verify
  Providers are in compliance with    compliance with many of the e-file Program
            requirements.             requirements. Appendix V provides examples of those
                                      e-file Program requirements that can only be verified via
                                      a monitoring visit.
Each year during the filing season,2 specially trained IRS employees visit approximately
1 percent of all authorized e-file Provider establishments to perform comprehensive operational
reviews. Figure 2 shows the trends in the e-file Monitoring Program during the 2005 through
2007 Filing Seasons.
                      Figure 2: Trends in E-File Monitoring Program for
                                the 2005-2007 Filing Seasons
                                  Tax                                  Total e-file
                                 Return     Total e-file Providers     Monitoring
                                 Filing     Included in Selection        Visits
                                 Season            Process              Planned
                                  2007             127,000                1,270
                                  2006             105,300                1,053
                                  2005             117,571                1,175
                               Source: IRS documentation related to planning its
                                annual e-file Provider monitoring visits.

Monitoring visits involve an assessment of e-file Provider business practices, including methods
for advertising, preparing tax returns, and safeguarding sensitive taxpayer information.
Violations of e-file requirements can result in the following:
•   Verbal warning – oral admonishment to the e-file Provider for not adhering to e-file
    Program rules and entails discussion of possible consequences relating to further
    noncompliance.


1
  When an e-filed return is transmitted to the IRS, it is run through a series of validity and error checks. These
checks look for such things as names and Social Security Numbers that match IRS records, math errors, and other
common errors. If errors are found, the return is rejected back to the e-file Provider to fix the error and resubmit
the return.
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                            Page 3
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



•   Written reprimand – issuance of a formal written warning, communicating more serious
    violations.
•   Suspension – a 1 to 2 year removal from the e-file Program.
•   Expulsion – permanent removal from the e-file Program.
The IRS Wage and Investment Division is responsible for the oversight of the e-file Provider
screening process. The Small Business/Self-Employed Division is responsible for the
Monitoring Program. This review is a followup review to previous audits the Treasury
Inspector General for Tax Administration (TIGTA) performed assessing the effectiveness of the
IRS’ screening and monitoring of e-file Providers.3 Appendix IV provides a list of the
recommendations and corrective actions associated with these reviews.
This review was performed at the Electronic Tax Administration function in Washington, D.C.;
the e-file Unit in the Andover, Massachusetts, Submission Processing Site; and the Small
Business/Self-Employed Division Headquarters located in New Carrollton, Maryland.
Additionally, visits were made to the Los Angeles, California, and Philadelphia, Pennsylvania,
Small Business/Self-Employed Division Planning and Special Programs offices. Records were
obtained from the Small Business/Self-Employed Division Planning and Special Programs
offices in Chicago, Illinois, and Jacksonville, Florida. This audit was conducted during the
period December 2006 through June 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference
Number 2003-30-039, dated January 2003), Improvements Are Needed in the Screening and Monitoring of E-File
Providers to Protect Against Filing Fraud (Reference Number 2004-40-013, dated November 2003), and E-File
Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002).
                                                                                                    Page 4
                Better Screening and Monitoring of E-File Providers Is Needed to
                   Minimize the Risk of Unscrupulous Providers Participating
                                      in the E-File Program




                                  Results of Review

The Application Screening Process Does Not Ensure the Integrity of
the Individuals Applying for Participation in the E-File Program
The IRS has an effective process for ensuring applicants meet age requirements and e-file
Providers meet certain suitability checks, such as tax compliance. However, the IRS does not
have an independent verification process to confirm the accuracy of applicants who claim they
                                       are a Not-For-Profit service. Additionally, the IRS does
     Program requirements and          not verify citizenship; credit checks are not performed;
      suitability checks are not       and  criminal background checks are limited.
       verified or consistently
              performed.                The IRS does verify the status of applicants who submit
                                        professional certifications in lieu of a fingerprint card to
                                        ensure they are still in good standing with the particular
                                        organizations that issued the certifications. It also verifies
all new applicants are at least 21 years of age and not deceased. Additionally, the IRS
developed an automated process to check and monitor tax compliance of both applicants and
existing approved e-file Providers.
There are currently no national standards an individual is required to satisfy before presenting
himself or herself as a Federal tax preparer and selling tax preparation services to the public.
Tax compliance checks, validation of professional certification, confirmation of age
requirements, and sampled criminal background checks reduce the risk of non-integrity of e-file
Providers. However, it is important that the IRS adequately screens e-file Provider applicants to
protect both the taxpaying public and the Federal Government from losses resulting from
actions by unscrupulous Providers.

An automated process checks and monitors tax compliance for applicants and
existing e-file Providers
In Fiscal Year 2004, the IRS developed the Automated e-file Application Processing system.
This system automates the process of checking and monitoring tax compliance and ensures
applicants and approved e-file Providers are current with their tax return filings and tax
payments. In addition, this process ensures individuals and businesses have not been assessed




                                                                                               Page 5
                  Better Screening and Monitoring of E-File Providers Is Needed to
                     Minimize the Risk of Unscrupulous Providers Participating
                                        in the E-File Program



Social Security Numbers; and income, employment, and bank account details) is regarded as a
prime target for identity thieves.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Verify that Not-for-Profit applicants are a Not-for-Profit service. For
existing authorized e-file Providers who are a Not-for-Profit service, a validation should be
performed to ensure these e-file Providers are in fact a Not-for-Profit service.
        Management’s Response: IRS management agreed with this recommendation.
        The Electronic Tax Administration Office is currently partnering with Stakeholder
        Partnerships, Education, and Communication Headquarters to establish formal
        procedures for validating existing authorized IRS e-file Providers as an organization
        providing a Not-for-Profit service via management reports, screening prior to acceptance
        for the IRS e-file Program, etc.
Recommendation 2: Revise screening procedures to require validation of an applicant’s
citizenship. This process should require corresponding with potential applicants whose
citizenship indicators reflect a non-citizenship status. For existing authorized e-file Providers,
the IRS should conduct a validation to identify individuals with non-citizenship statuses and
develop a process to confirm the citizenship of these individuals.
        Management’s Response: IRS management agreed with this recommendation.
        The Electronic Tax Administration Office has already taken steps to review the
        citizenship verification process and develop a solution. The citizenship codes of
        applicants can be checked, using the Data Master One10 tape from the Social Security
        Administration, before they are accepted into the IRS e-file Program. Any applicants
        found to have a citizenship code that shows they are an alien in the U.S. and are not a
        legal resident alien will be manually contacted for verification before the application can
        be completed. For existing applicants, the Electronic Tax Administration Office will
        perform a one-time query prior to implementing the same procedures. Individuals who
        are unable to verify that they are U.S. citizens or legal resident aliens will be suspended
        from the IRS e-file Program.




10
  The Data Master One File Data Store contains data from the Social Security Administration used to verify
taxpayers who do not have a primary Master File account.
                                                                                                         Page 9
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



The Monitoring Program Does Not Ensure E-File Providers Are
Compliant With Program Requirements
Deficiencies prevent the IRS from measuring program performance and ensuring that
authorized e-file Providers are in conformance with e-file Program guidelines. Current
procedures do not ensure Providers most at risk of noncompliance are selected for monitoring
visits and Providers in violation of Program requirements are suspended. E-file Provider
appeals are not well documented and the e-file Monitoring Program management information is
inaccurate.
Improvements are needed to ensure the e-file Monitoring Program will have the most impact in
detecting and stopping unscrupulous Providers. Taxpayers and the Federal Government’s risk
from fraudulent tax return filings increases when noncompliant e-file Providers are not
identified. The recent filing of civil injunction suits against five corporations that operate tax
preparation businesses shows the importance of adequate oversight over e-file Providers. The
lawsuits allege the e-file Providers created and fostered an environment in which fraudulent tax
return preparation is encouraged and flourishes. The suits allege more than $70 million in
combined losses to the Federal Government.
Throughout the audit, as we brought the following issues to IRS management’s attention,
management understood the significance of the issues and took immediate actions to address
these concerns. These actions often included the immediate development and issuance of
interim guidance.

Targeted monitoring visits are not based on risk factors and required followup
visits are not being conducted
Current procedures do not ensure the established risk-based selection process is followed when
selecting e-file Providers for monitoring visits. Required followup visits are not being
conducted. In addition, documentation is not maintained to support referrals from internal and
external sources and the actions taken based on these referrals.
There are three types of monitoring visits, prioritized by: Referrals, Follow up, and
Targeted/Random. For Targeted monitoring visits, the established risk-based selection criteria
is to include e-file Providers who e-filed 100 or more tax
returns, had a reject rate of at least 25 percent, and/or
                                                                  Deficiencies in the e-file
had 25 percent or more missing U.S. Individual Income           Monitoring Program put the
Tax Declaration for an IRS e-file Return (Form 8453).         integrity of the e-file Program at
These criteria were established in response to a prior                       risk.
TIGTA audit11 that recommended the IRS develop

11
 Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference
Number 2003-30-039, dated January 2003).
                                                                                             Page 10
                  Better Screening and Monitoring of E-File Providers Is Needed to
                     Minimize the Risk of Unscrupulous Providers Participating
                                        in the E-File Program



uniform risk-based selection criteria to take advantage of available information and data for
selecting e-file Providers for its monitoring visits. In addition, guidelines require that all e-file
Providers who are issued written reprimands be subject to followup monitoring visits in the
subsequent tax return filing season to ensure corrective actions have been taken.
Risk-based selection criteria to identify those e-file Providers to be visited is not being
followed

Testing at two Area Offices12 identified that monitors were
not following the risk-based criteria when selecting e-file                  Monitoring Coordinators were
Providers to review. A review of the characteristics of                       not aware of the risk-based
                                                                              criteria to be followed when
40 randomly sampled e-file Providers selected for                           identifying e-file Providers for a
monitoring visits for the 2007 Filing Season identified                              monitoring visit.
that:
•    Three (8 percent) of the 40 e-file Providers e-filed
     fewer than 100 tax returns. Of the 3, 1 e-file Provider did not have any tax returns filed,
     while 2 others had filed returns totaling 15 and 23.
•    Thirty-two (80 percent) of the 40 e-file Providers had reject rates below 25 percent. For
     example, 2 e-file Providers had reject rates of only 4 and 8 percent.
An ample number of e-file Providers that met specific risk-based criteria could have been
selected for monitoring visits. Analysis of tax data for these 2 Area Offices identified 453 e-file
Providers that met the criteria of having filed 100 or more tax returns and a 25 percent or greater
reject rate – 200 in one of the Areas and 253 in the other Area. Workload planning required
these two Areas in total to perform 220 visits.
Monitoring Coordinators13 in these two Area Offices stated they were unaware of selection
criteria. The criteria had not been added to formal guidance documents. Coordinators
acknowledged that selections were often tied to visits conducted as part of the Earned Income
Tax Credit Due Diligence Program. As a result, monitoring visits were at times limited
geographically and had no relationship to any of the selection criteria. The coupling of visits
for the two Programs was a resource driven decision to save on travel and staff expenditures.




12
   A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
13
   Monitoring Coordinators develop annual monitoring visit plans including identification of subject e-file
Providers and train territory office employees (i.e. monitors) responsible for performing the monitoring visits. The
Monitoring Coordinators also review monitoring visit case files.
                                                                                                            Page 11
               Better Screening and Monitoring of E-File Providers Is Needed to
                  Minimize the Risk of Unscrupulous Providers Participating
                                     in the E-File Program



Decisions for reversing e-file Provider suspensions are not well documented
Documentation supporting decisions to reverse recommended suspensions is not maintained by
Area Offices. A review of 18 proposed suspensions from 2 Area Offices found that
8 (44 percent) of the proposed suspensions were reversed by the Monitoring Coordinators. The
suspensions were reduced to either warnings or written reprimands. For 5 (63 percent) of
8 reversals documentation was not available to show either the rationale for the reversals or the
specific individuals involved in the reversal decisions.
An e-file Provider advised of either a proposed suspension (i.e., not effective until all appeal
options are exhausted) or an immediate suspension has the right to submit, to the IRS within
30 days, a written request for appeal that must be accompanied by supporting documentation.
The appeal process is comprised of two levels, the first being an administrative review decided
by Area Office officials. If the e-file Provider is not satisfied with the outcome of the
administrative review, he or she may proceed to the
second level and file a formal appeal.                            Adequate documentation
                                                                 was not maintained
Formal guidelines state the Monitoring Coordinator will          supporting appeal
decide whether to reverse the suspensions. Guidance                 decisions.
also outlines that an administrative review committee
will review and decide the appeals. However, guidance
does not detail specific documentation to be maintained.
Standards for Internal Controls in the Federal Government mandate that all transactions and
other significant events need to be clearly documented and the documentation should be readily
available for examination.

Management information used to monitor e-file Providers is not accurate
Three of four Monitoring Coordinators submitted inaccurate management information reports to
National Program Management at the conclusion of the
2006 Filing Season. Reviews of e-file monitoring case        Inaccuracies in management
files in two of four Area Offices identified inaccuracies    information resulted from the
in reporting the disposition of monitoring visits.         lack of a reconciliation process.
Figure 4 provides a comparison of the actual disposition
to what was reported (excluding suspension information
for which separate testing was performed).




                                                                                         Page 14
               Better Screening and Monitoring of E-File Providers Is Needed to
                  Minimize the Risk of Unscrupulous Providers Participating
                                     in the E-File Program



           Figure 4: Comparison of Actual Results of 2006 Filing Season
                    Monitoring Visits With Information Reported
                               Results                    Results Reported to
                       per TIGTA Review for Two            National Program
                         Sampled Area Offices                 Management
                                                                      Difference
                      In Compliance             89          97             8%
                      Verbal Warning            20          25            20%
                      Written Reprimand         57          44           -30%
                      In Compliance             28          36            22%
                      Verbal Warning             4          14            71%
                      Written Reprimand          9           9             ---
                     Source: TIGTA review of monitoring case files maintained in two
                     Area Monitoring Coordinator offices sampled.

In addition, two of four Area Offices’ management information relating to suspensions was
inaccurate. Figure 5 provides a comparison of what was reported to actual results.
                     Figure 5: Comparison of Actual Suspensions
                               With the Number Reported
                                 Results Per TIGTA           Results Reported to
                                      Review                National Management

                              Proposed       Immediate      Proposed     Immediate

                    Area A        17              0             16            3
                    Area B        11              0             11            0
                    Area C          5             2              0            5
                    Area D          0             0              0            0

                    Total         33              2             27            8

                   Source: TIGTA review of suspension documentation obtained from
                   Area Offices Monitoring Coordinators included in our sample.

Beginning the last week of January each year and throughout the filing season, Monitoring
Coordinators are required to report weekly, to the National Program Management, the number
of e-file monitoring visits completed, along with the specific results of those monitoring visits.
These weekly reports are based on data the Coordinators receive from the offsite monitors who
performed the visits.
Inaccuracies result when the Monitoring Coordinators review the cases after they have already
reported the weekly results to the National Management. The Monitoring Coordinators review

                                                                                           Page 15
                Better Screening and Monitoring of E-File Providers Is Needed to
                   Minimize the Risk of Unscrupulous Providers Participating
                                      in the E-File Program



the monitoring visit case files after the end of the filing season, and at times the reviews result
in a change to the disciplinary actions recommended by the offsite monitor who performed the
visit. However, Monitoring Coordinators are not updating management information with
changes based on their reviews.
Not updating results when proposed suspensions are reversed on appeal and a lesser disciplinary
action is recommended also contributes to the inaccuracies in management information.
Inaccurate management information impedes the IRS’ ability to effectively quantify the scope
and results of the e-file Monitoring Program and to make informed business decisions relative to
Program direction.

Recommendations
The Commissioner, Small Business/Self Employed Division, should:
Recommendation 3: Develop a process that ensures established risk-based selection criteria
is used to identify e-file Providers for monitoring visits.
       Management’s Response: IRS management agreed with this recommendation. A
       risk-based selection criterion has been developed and added to Internal Revenue Manual
       4.21.1, Electronic Filing Program-Monitoring the IRS e-file Program, which should be
       published by January 30, 2008.
Recommendation 4: Clarify procedures regarding when followup visits should be
performed and implement a process that ensures followup visits are conducted in accordance
with the clarified guidelines.
       Management’s Response: IRS management agreed with this recommendation.
       Procedures regarding followup visits have been clarified and added to Internal Revenue
       Manual 4.21.1, Electronic Filing Program-Monitoring the IRS e-file Program, which
       should be published by January 30, 2008.
Recommendation 5: Develop a process to record the receipt and disposition of referrals
from internal and external sources. This process should also ensure the timely referral to other
IRS functions, if recommended.
       Management’s Response: IRS management agreed with this recommendation. A
       process has been developed to keep track of these cases through a new control log kept
       by the Area E-File Monitoring Coordinators to be forwarded to the Headquarters analyst
       at the end of each quarter, including the end of the calendar year. This new procedure
       has been added to Internal Revenue Manual 4.21.1, Electronic Filing
       Program-Monitoring the IRS e-file Program, which should be published by
       January 30, 2008.


                                                                                            Page 16
               Better Screening and Monitoring of E-File Providers Is Needed to
                  Minimize the Risk of Unscrupulous Providers Participating
                                     in the E-File Program



Recommendation 6: Develop a process to ensure e-file Provider privileges are suspended
when recommended and consideration is given and notated if Principal(s) and/or Responsible
Official(s) should be removed from the e-file Program.
       Management’s Response: IRS management agreed with this recommendation. A
       process has been developed to keep track of Electronic Filing Identification Number
       suspension cases through a new control log kept by the Area E-File Monitoring
       Coordinators to be forwarded to the Headquarters analyst at the end of each quarter,
       including the end of the calendar year. This new procedure has been added to Internal
       Revenue Manual 4.21.1, Electronic Filing Program-Monitoring the IRS e-file Program,
       which should be published by January 30, 2008.
Recommendation 7: Develop procedures requiring the maintenance of adequate
documentation supporting an e-file Provider’s request for an appeal, as well as documentation
supporting the review and outcome of an appeal.
       Management’s Response: IRS management agreed with this recommendation.
       Procedures have been clarified and incorporated into Internal Revenue Manual 4.21.1,
       Electronic Filing Program-Monitoring the IRS e-file Program, which should be
       published by January 30, 2008.
Recommendation 8: Develop a process to ensure management information accurately
reflects the results of the e-file Monitoring Program.
       Management’s Response: IRS management agreed with this recommendation. A
       process has been developed to keep track of results that are kept by the Area E-File
       Monitoring Coordinators to be forwarded to the Headquarters analyst at the end of each
       quarter, including the end of the calendar year. This new procedure has been added to
       Internal Revenue Manual 4.21.1, Electronic Filing Program-Monitoring the IRS e-file
       Program, which should be published by January 30, 2008.




                                                                                       Page 17
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



Reviews of Closed Criminal Cases Involving E-file Providers May
Identify Risk Factors or Indicators to Detect Unscrupulous E-file
Providers
The IRS does not have a process to review e-file Provider cases worked by its Criminal
Investigation function to identify opportunities to improve on the screening checks and selection
criteria for monitoring visits. Characteristics of these cases could identify risk factors or
indicators to be used to screen unscrupulous individuals from entry into the e-file Program and
identify unscrupulous e-file Providers in the e-file Program. The Criminal Investigation
function initiated 315 criminal cases involving tax return preparers during Fiscal Years 2006
and 2007 (as of April 30, 2007). The Criminal Investigation function currently does not track
tax preparer cases by whether or not the individual was an e-file Provider, but an analyst stated
that most of these cases involve e-file Providers.
An example included in a prior TIGTA report14 detailed a closed criminal case concerning an
e-file Provider who pled guilty to filing false tax returns. This case exemplifies the importance
of the IRS including reject rates as a risk factor in the monitoring visit selection criteria. This
e-file Provider had a reject rate in excess of 40 percent for tax returns submitted during the 2001
and 2002 Filing Seasons. The high reject rate resulted from a process known as “washing.”
The washing entailed the e-file Provider submitting tax returns using fraudulently obtained
Social Security Numbers. As part of the IRS’ validity checks, it verified the Social Security
Numbers using computer files to determine if they were valid and/or were previously used on
another tax return. If the checks identified problems, the tax return was rejected and the e-file
Provider was provided an explanation on why the tax return was rejected. The e-file Provider
would keep track of the rejected Social Security Numbers to ensure they were not used on
subsequently submitted fraudulent tax returns. The IRS has since added a high reject rate as
one of the indicators for identifying an e-file Provider for a monitoring visit.
This e-file Provider filed approximately 9,000 fraudulent tax returns over a 3-year period and
received approximately $7 million in fraudulent tax refunds in 1 year alone. This e-file Provider
had a criminal history before being accepted into the Program. The e-file Provider pled guilty
to filing false, fictitious, and fraudulent claims against the U.S. (tax returns); conspiracy to file
false claims against the U.S.; and conspiracy to negotiate forged U.S. Treasury checks of
approximately $33,000.




14
  Improvements Are Needed in the Screening and Monitoring of E-File Providers to Protect Against Filing Fraud
(Reference Number 2004-40-013, dated November 2003).
                                                                                                     Page 18
               Better Screening and Monitoring of E-File Providers Is Needed to
                  Minimize the Risk of Unscrupulous Providers Participating
                                     in the E-File Program



Recommendation
The Commissioners, Wage and Investment Division, and Small Business/Self Employed
Division, should:
Recommendation 9: Ensure results of criminal cases involving e-file Providers are used to
identify potential risk factors or indicators that can be built into the screening and monitoring
process to improve on the identification of unscrupulous e-file Providers.
       Management’s Response: IRS management partially agreed with this
       recommendation. The Wage and Investment and Small Business/Self-Employed
       Divisions will study the feasibility of using results of criminal cases involving e-file
       Providers to identify risk factors or indicators for the suitability process. This will
       require working with the Criminal Investigation Division, to obtain criminal case
       characteristics of providers of e-file returns and any other information they might have.
       If a work request is needed for enhancements to the electronic e-file Application, more
       time will be needed for funding and implementation of new electronic processes.




                                                                                           Page 19
                    Better Screening and Monitoring of E-File Providers Is Needed to
                       Minimize the Risk of Unscrupulous Providers Participating
                                          in the E-File Program



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’ screening and monitoring of e-file
Providers is effective. To accomplish this objective, we:
I. Determined whether the initial and periodic screening process is effectively identifying those
   e-file Providers that are not in compliance with Program requirements.
    A. Assessed actions taken by the IRS in response to prior TIGTA recommendations.
    B. Determined whether applicants met e-file requirements prior to acceptance in the
       Program.
          1. Obtained a list of active e-file Providers from the Third Party Data Store.1 To
             validate this data, we selected five records from the Third Party Data Store extract
             and validated them to printouts from the Third Party Data Store.
          2. Selected a statistically valid sample of 98 active e-file Providers out of 29,454 e-file
             applications that were accepted in 2006 to assess compliance with e-file
             requirements. Our sample size was selected based on a 10 percent error rate, a
             5 percent precision rate, and a 90 percent confidence level.
               a)    Performed data matches for all Principal(s) and Responsible Official(s)2 listed
                     on the application to confirm that they were in compliance with age and
                     citizenship requirements and that the individuals were not deceased.
               b)    Performed data matches for the business, all Principal(s), and Responsible
                     Official(s) to ensure they were tax compliant.
               c)    Determined whether a fingerprint card or professional certification was received
                     for all Principal(s) and Responsible Official(s) listed on the application.
               d)    Determined whether a mandatory criminal background check was performed for
                     those applicants who indicated on the application that the firm failed to file


1
  The Third Party Data Store is an electronic database that houses all pertinent information on third parties that
interact with the IRS through e-Services. For example, this database contains information on all registered users and
e-file Providers, along with information on their e-file activity.
2
  A Principal includes the sole proprietor, partners, or individuals authorized to act for the entity in legal and/or tax
matters. A Responsible Official is the first point of contact with the IRS and has the authority to sign revised IRS
e-file applications and ensures the e-file Provider adheres to the provisions of the revenue procedure as well as all
publications and notices governing IRS e-file.
                                                                                                               Page 20
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



                  business tax returns or pay tax liabilities, or an individual on the application
                  indicated they had been assessed preparer penalties, been convicted of a crime,
                  failed to file personal tax returns or pay tax liabilities, or been convicted of any
                  criminal offense under the U.S. Internal Revenue laws.
            e)    For those individuals in our sample selected for a criminal background check,
                  assessed the actions taken based on any results received back from the Federal
                  Bureau of Investigation and determined whether results were received prior to
                  acceptance.
   C. Determined whether the IRS has a process to ensure applicants selecting Not-for-Profit
      are in fact Not-For-Profit.
   D. Determined whether the IRS’ screening process is effective.
II. Determined whether the IRS’ e-file monitoring process effectively identifies any e-file
    Providers who are not complying with Program requirements.
   A. Assessed related actions the IRS took in response to prior TIGTA recommendations.
   B. Determined whether the IRS has established a process to effectively track and resolve
      referrals received.
   C. Assessed the process for e-file Monitoring Coordinators to follow when referring an
      e-file Provider to the Examination and/or Criminal Investigation function.
   D. Evaluated whether the checksheet that e-file monitors use to ensure completeness of
      monitoring visits includes an assessment of all Program requirements.
   E.   Assessed the effectiveness of the process followed for selecting e-file Providers for
        monitoring visits.
   F.   Determined if disciplinary actions resulting from violations identified during
        2006 monitoring visits were carried out in accordance with guidelines. For the two Area
        Offices we visited, we determined whether written reprimands issued to noncompliant
        e-file Providers were followed-up on, as required.
   G. For the two Area Offices visited, reviewed the effectiveness of actions taken to suspend
      e-file Providers. Sites visited were selected to ensure broad geographic coverage.
      Because of significant issues identified, we expanded testing to two other Area Offices,
      selected based on the relative high volume of suspensions in Calendar Year 2006. In
      total, we assessed the processing of all 35 proposed and immediate suspensions imposed
      in Calendar Year 2006.
   H. Identified control breakdowns and attempted to assess the impact on taxpayers and the
      IRS.


                                                                                               Page 21
              Better Screening and Monitoring of E-File Providers Is Needed to
                 Minimize the Risk of Unscrupulous Providers Participating
                                    in the E-File Program



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Pamela DeSimone, Lead Auditor
Robert Howes, Senior Auditor
Andrea Hayes, Auditor
Mary Keyes, Auditor




                                                                                   Page 22
              Better Screening and Monitoring of E-File Providers Is Needed to
                 Minimize the Risk of Unscrupulous Providers Participating
                                    in the E-File Program



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 23
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



                                                                                               Appendix IV

            Prior Treasury Inspector General for Tax
            Administration Report Recommendations

               Report                                                Corrective Action per the
               Reference        Recommendation                       IRS

               2004-40-013      Ensure citizenship and age           Agreed – will ensure
               November         requirements are met.                responsible officials possess
               2003 1                                                valid Social Security
                                                                     Numbers.
                                Ensure criminal background           Agreed - process requires the
                                checks are obtained                  purchase of scanning
                                electronically.                      hardware and software.
                                                                     Completion of this acquisition
                                                                     process will not occur before
                                                                     the 2004 Filing Season.
                                For unprocessable fingerprint        Agreed - guidelines revised
                                cards, a name check should be        and the Federal Bureau of
                                used as the basis for the criminal   Investigation will be
                                background check.                    requested to perform a
                                                                     background check using name
                                                                     and other available
                                                                     information on unprocessable
                                                                     cards.
                                Ensure individuals who provide       Agreed - revised IRS e-file
                                professional certifications are in   Application and Participation
                                current standing.                    (Publication 3112) as well
                                                                     guidelines and procedures.
                                                                     Also, enrolled agents will be
                                                                     validated during application
                                                                     process. There is no central
                                                                     repository for a systemic
                                                                     check for the other categories
                                                                     of professionals. Will pursue
                                                                     other methods to perform
                                                                     check of other categories.



1
 Improvements Are Needed in the Screening and Monitoring of E-file Providers to Protect Against Filing Fraud
(Reference Number 2004-40-013, dated November 2003).
                                                                                                      Page 24
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



              Report                                                 Corrective Action per the
              Reference        Recommendation                        IRS

              2004-40-013      Periodic updates of criminal          Disagreed – no action.
              November         investigations.
              2003
              (continued)
                               Use e-file reject rates for           Agreed – will develop related
                               selecting monitoring visits.          guidance.
                               Establish a system to measure         Agreed – will revise
                               the effectiveness of the e-file       monitoring reports to reflect
                               Provider monitoring program.          the results broken down by
                                                                     referral type.
              2003-30-039      Establish a goal and method for       Disagreed – cannot accurately
              January 20032    measuring program effectiveness       measure results of visits.
                               for improving ERO compliance,
                               such as results of followup visits.
                               Maintain case documentation -         Agreed - issued memo
                               re-enforce that followup visits       guidance.
                               are a measure of monitoring the
                               impact on compliance.
                               Allow time for case building.         Agreed - training provided.

                               Ensure ease of identifying            Agreed - guidance issued.
                               referral sites.
                               Develop process for proper mix        Agreed - guidance issued.
                               of random/mandatory visits -
                               broad geographic coverage.

                               Develop uniform risk-based            Agreed - Guidance issued on
                               criteria for selecting e-file         use of indicators in selecting
                               Providers to include in               e-file Providers for
                               monitoring visit plans.               monitoring visits.
                               Provide clear and unambiguous         Agreed - Guidelines revised.
                               infraction and sanction
                               guidelines.




2
 Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference
Number 2003-30-039, dated January 2003)
                                                                                                      Page 25
                    Better Screening and Monitoring of E-File Providers Is Needed to
                       Minimize the Risk of Unscrupulous Providers Participating
                                          in the E-File Program



                 Report                                               Corrective Action per the
                 Reference        Recommendation                      IRS

                 2003-30-039      Revise e-file Monitoring            Agreed - instructed monitors
                 January 2003     Guidelines to consider Earned       to pursue due diligence
                 (continued)      Income Tax Credit due diligence     penalties when appropriate.
                                  when determining e-file Provider
                                  compliance with Internal
                                  Revenue Service e-file Program
                                  requirements.
                                  Ensure complete case                Agreed - guidance issue.
                                  documentation is maintained.
                 2002-40-111      Screening procedures should         Disagreed - due to view that
                 June 2002 3      include independent validation of   number of ineligible
                                  citizenship and age.                applicants based on age and
                                                                      citizenship is small.
                                  All applicants should be            Disagreed – Experience
                                  subjected to credit and criminal    shows credit checks are
                                  background checks before            ineffective. Case study
                                  acceptance in the e-file Program.   showed background
                                                                      investigations reveal
                                                                      information usually not of
                                                                      significance to deny
                                                                      participation in the e-file
                                                                      Program. E-file growth and
                                                                      return preparation for
                                                                      low-income taxpayers would
                                                                      be adversely affected with
                                                                      checks at volunteer sites.
                                  Perform subsequent                  Disagreed - report does not
                                  credit/criminal checks at regular   justify need. Regular
                                  intervals.                          monitoring of Providers
                                                                      occurs ensuring compliance
                                                                      with rules, and the audit
                                                                      report does not show
                                                                      screening and monitoring
                                                                      processes produce negative
                                                                      results, thus justifying
                                                                      additional checks.




3
    E-file Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002).
                                                                                                     Page 26
   Better Screening and Monitoring of E-File Providers Is Needed to
      Minimize the Risk of Unscrupulous Providers Participating
                         in the E-File Program



 Report                                             Corrective Action per the
 Reference        Recommendation                    IRS

 2002-40-111      Guidelines for handling           Agreed - will request new
 June 2002        fingerprint cards returned as     fingerprint cards from
 (continued)      unprocessable should be           applicants and resubmit them
                  followed and individuals with     to the Federal Bureau of
                  unprocessable fingerprint cards   Investigation. No need to
                  should be contacted and a new     contact those who were
                  card provided for completion of   already identified to date
                  criminal check.                   since those individuals are
                                                    already participants in the
                                                    Program. Will issue interim
                                                    guidance on obtaining new
                                                    fingerprint cards.

Source: Prior TIGTA Reports as cited.




                                                                                   Page 27
                 Better Screening and Monitoring of E-File Providers Is Needed to
                    Minimize the Risk of Unscrupulous Providers Participating
                                       in the E-File Program



                                                                                    Appendix V

    Examples of E-File Provider Requirements Verifiable
             Only Through a Monitoring Visit

•    Accepting tax returns from persons other than taxpayers or authorized e-file Providers.
•    Conduct of a disreputable nature.
•    Earned Income Tax Credit Due Diligence Checklist and Worksheet not on file.
•    Failure to check identification of tax return filers.
•    Failure to notify the IRS of changes in Application to Participate in the IRS e-file Program
     (Form 8633) (e.g., not notifying the IRS of business address and contact information
     changes).
•    Failure to protect taxpayer information from potential misuse.
•    Failure to retain required records.
•    Knowingly employing a denied/suspended e-file Provider.
•    Not complying with advertising standards (e.g., posting misleading advertising material).
•    Preparation of tax returns using leave and earnings statements rather than required Wage and
     Tax Statement (Form W-2).
•    Unethical practices in tax return preparation.
•    Untimely, missing, or incomplete U.S. Individual Income Tax Declaration for an IRS e-file
     Return (Form 8453) (i.e., failure to adhere to taxpayer signature requirements).




                                                                                            Page 28
   Better Screening and Monitoring of E-File Providers Is Needed to
      Minimize the Risk of Unscrupulous Providers Participating
                         in the E-File Program



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 29
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 30
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 31
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 32
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 33
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 34
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 35
Better Screening and Monitoring of E-File Providers Is Needed to
   Minimize the Risk of Unscrupulous Providers Participating
                      in the E-File Program




                                                          Page 36
